No. 19-51
In the

Supreme Court of the United States
BEN BRANCH, et al.,
v.

Petitioners,

DEPARTMENT OF LABOR RELATIONS, et al.
Respondents.
On Petition for Writ of Certiorari
to the Massachusetts Supreme Judicial Court
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS
CURIAE OF PACIFIC LEGAL FOUNDATION IN SUPPORT OF PETITIONERS
contains 3,901 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 23, 2019.

s/ Deborah J. La Fetra
DEBORAH J. LA FETRA
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Facsimile: (916) 419-7747
E-mail: djl@pacificlegal.org
Counsel for Amicus Curiae
Pacific Legal Foundation

